               Office of Audits
               Office of Inspector General
               U.S. General Services Administration

    DATE:             September 10, 2014
    TO:               Norman Dong
                      Commissioner
                      Public Buildings Service (P)

    FROM:             Susan P. Hall
                      Audit Manager
                      Program Audit Office (JA-R)
    SUBJECT:          GSA Should Disclose Historic Building Information for the Federal
                      Triangle South Project
                      Audit Memorandum Number A140114-2

The General Services Administration’s (GSA) Public Buildings Service (PBS) should
ensure that it fully discloses the historic status of the GSA National Capital Region
Regional Office Building (Regional Office Building) 1 to potential developers on the
Federal Triangle South project. Disclosure of historical building information could
protect GSA from future legal actions, claims, and negative press. On the Federal
Triangle South project, PBS will be exchanging the Regional Office Building and the
Cotton Annex Building for construction and related services at the GSA Headquarters
Building 2 and the Department of Homeland Security’s St. Elizabeths campus.

On September 6, 2013, PBS determined the Regional Office Building ineligible for
listing in the National Register of Historic Places (National Register). PBS submitted its
Regional Office Building determination to the Department of the Interior’s National Park
Service, Keeper of the National Register of Historic Places (Keeper of the Register),
who retains authority for a final determination on the historic eligibility. In its submission
PBS notes historically significant murals in the lobby of the building are protected under
GSA’s Fine Arts program and will remain under GSA ownership. 3

On March 6, 2014, the Keeper of the Register concurred with PBS’s determination,
deeming the property ineligible for listing in the National Register. In its determination of
eligibility, the Keeper of the Register cited a loss of historical and architectural integrity

1         th
   301 7 Street, Southwest, Washington, D.C. The Regional Office Building was constructed between
1931 and 1935 to serve as a warehouse for the Procurement Division of the Treasury Department. Since
its original construction, the building has been altered to provide office space for GSA and other agencies.
2
  1800 F Street, Northwest, Washington, D.C.
3
   From 1936 to 1938, American painter Harold Weston completed 22 murals funded by the Treasury
Relief Art Project during the Great Depression.


                                                 1
as a result of the extensive and repeated alterations to the building in the 1950s. PBS
and the Keeper of the Register’s historic ineligibility determinations were included in the
Federal Triangle South project’s April 7, 2014, Request for Qualifications, which
explicitly stated, “ROB [Regional Office Building] is not eligible for listing in the National
Register of Historic Places.”

However, the District of Columbia Historic Preservation Office (Preservation Office)
disagreed with the ineligibility determinations, noting, among other things, the building is
an early example of a rare modern warehouse that is comparable to other area
warehouses listed in the National Register. Additionally, on April 14, 2014, the DC
Preservation League 4 submitted the Regional Office Building to the Preservation Office
for review. The DC Preservation League’s submission served as both a local District of
Columbia historic landmark application and a nomination for listing in the National
Register. The Preservation Office has the final authority for designating local
landmarks. They have not yet ruled on the matter.

The Preservation Office’s review could yield additional information that was unavailable
during PBS’s and the Keeper of the Register’s reviews of the Regional Office Building.
If the building is determined to be a local historic landmark, it would be subject to local
regulation, 5 which would regulate any demolition or alteration of the building, as well as
any new construction on its site. Additionally, a local landmark designation, in
conjunction with new information collected during the Preservation Office’s review,
could change the Keeper of the Register’s current determination of ineligibility for listing
in the National Register.

Conversely, the Regional Office Building could be designated a local historic landmark
but, at the same time, remain ineligible for listing in the National Register. As such,
private developers would be subject to local historic regulation, but would be unable to
take advantage of potentially substantial federal tax credits that are available to
properties listed in the National Register.

Since the building is federally owned, it is not subject to local regulation. However,
when the Regional Office Building is exchanged and removed from the Federal
inventory, it could be subject to a local landmark application, as noted by PBS in its
submission to the Keeper of the Register:

       As such, the doctrine of federal supremacy protects the activities of the
       federal government from regulation by state and local authorities. Unless
       Congress clearly declares that the federal government is subject to local
       regulation, federal activities are free of such regulation. The DC Historic
       Preservation Office would be free to consider a local landmark application
       if the building were to leave federal ownership.


4
  The DC Preservation League is a non-profit organization whose mission is to preserve, protect, and
enhance the historic and built environment of Washington, D.C.
5
  Specifically, the Historic Landmark and Historic District Protection Act of 1978, D.C. Law 2-144.


                                             2
PBS needs to ensure that the complete historical status of the Regional Office Building
is fully disclosed to interested developers; including potential outcomes once the
property is exchanged, such as:

    1. The Preservation Office’s potential historic local landmark designation;
    2. A potential change in eligibility for listing in the National Register; and
    3. GSA’s intent to retain ownership of the historic murals.

Management Comments

In its comments, PBS noted its commitment to ensuring that all qualified offerors will be
made aware of updated historic building information. This will occur as part of the
Request for Proposals and throughout the proposal development and negotiation
phases of the exchange process. PBS’s response is included in its entirety in
Appendix A.

If you have any questions regarding this audit memorandum, please contact me at 202-
501-2073 or Kyle Plum, Auditor-in-Charge, at 202-273-5004.

I would like to thank you and your staff for your assistance as we continue to monitor
the Federal Triangle South project.




                                          3
Appendix A – Management Comments




                      A-1
Appendix B – Memorandum Distribution
Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

Project Executive, Federal Triangle South, PBS (P)

Regional Administrator, National Capital Region (WA)

Regional Commissioner, PBS, National Capital Region (WP)

Branch Chief, GAO/IG Audit Response Branch, (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




                                       B-1
